09/18/2008   09:34      oooooooeeo                           LOS ANGELES 0 Hi                                PAGE   02/09




                      NATIONAL RAILROAPPAS~ENGER CORPORATION
                               OFFICE OF INSl'ECTOR GENERAL

                                                 CLOSING REPORT

        CASE NO:         04-01.87                                                 Soptembcr 17, 2008


       TO:
                                 Inslleclor General/COlUlscl

       FROM:


       On July 7, 2008, the Office of the Inspector General ("OIG"), Office of Inv~stigatiol1s
       ("01") issued l\ Mal\l\golllont ROpOlt to                                 Engineo ';1\g
       Deparlment.

       On July 9, 2008, the Office of the Insll0cf,01' General ("OlG"), Office of Investigations
       ("OT.") issued a Management Report to                                              of 1110
       Pwourement and Materials Management J)eparlm'~nt.

       Ul's RecommendAtions jl;ngillccl'illg Ilncll'I'ocUI'cmcnt DeJlartments;

       The Managcmtlll .Ruj)v'l contained tlw following I'cconullcndntiollS tv both Departments
       for consideration:

       "Amtrak Management was aware of a fatolly flawed contract provision which required
       the vendor to complete !uKI Environmental Impact Study ("ElS") and Envirotuncntal
       Impact Report ("EIR") within a requisite 270 days (nine months), Tltis rcstriction was,
       by admission of            , all impossible task, or has established that despite this knowll
       fact, no onc associated with the lUi!, made any offort 10 correct t1\e (law or extend that
       time frame,              wimt so far as to admit that he penalized ParsolJs-J3ri.nJ(eroif for
       adhering to that tim\~ fraIne, Future RFP's should be reviewed for contcnt and reasonable
       time frames should be l'equil'ed to even the playing field for alll10tential bidders,

      Amtmk Managemcnt was awarc                                                             prior (0 his
      resignation from Amtmk, nino (9)                      earlier,                     contributed to
      developing the criteria utilized in the Request for Proposal ("RFP"), I                  ,lIould not
      have becn allowed to participate ill the clarification meetings, as 011 HDR Inc, employee,
      which was in preparation to HDR lllc,;s submission of their "best and flnal offer"
      ("BAFO"), Monagement's silence 011 the issl1e allowed                         (a frunili!1l' faeo in
      Amtrak) (I paxti.cipa(~ Ii~~l)il~ tIio potenllal f(ll' a "con(1lc( of interest" to exist. A more
      reasonablo approach might have il)eluded barring                        from thnt moeting and
      demanded that at least a yeal' paM !JeCore he would be allowed to participate in Amtrak
      reinted projects,


                                                       l.
09/18/2008. e9:   3~    0e0eeee0ee                             LOS ANGELES DIG                      PAGE   83/09




        Amtrak Mllnagemcnt had iailed to protect Amtrak aud the State of _                        (its
        clIstolJler) from pussible clvll litigation and ultimately failed to prote~sets
        entnlstcd to Amtrak's cal'e. Amtrak Management was made aware, by               , E-mail'
        datcd .Io·lIllary 28, 2002 (Exhibit # 4), of the both       aud _       h~vlllg divulged
        what :lUuding had been earmarked for the project and tllat specifically $9 Million had
        beel\ set aside. Amtrak M~nHgcmr.tlt failr.cf to·address those COllcems and allowed the
        contract to go fOlWal'd.                       .

        Amtra~ Management had failed to       exclude _          from the proceedings. _        was,
        by his OWll admission, admittedly     knowledgeable ill what funds had been set aside 1'01'
        this jlroject and enjoyed an untail' advantage of being able to advise his employer (HDR
        IlIc.) whut                            available fol' the project. This wag especially tnle
        because, M the                   fol' Amtrak, he h"lj)".1 u~vclop lh~ RFI' lhat was utillzcd
        fol' the pl'oject.             participation gave HDR an unfair advantage over the
        competing vendol'S.



        vendors.       _'s
        Amtrak ManaJ.\ement acted improperly by allowing aud accepting                ' 9 action in
        reconvening the Technical Evaluation tcam to rescore the teclm·ical aspects of the bidding
                               actions were admittedly improper by all individuals interviewed.
        The fact (hat the "scope of work" had not changed, which might have warranted n re-
        considcration, demonstratcd that there was 110 need to change th.e scoring othcr than to
        direct the award aficr the priees had been mv~~l~c.1.

        AmfT~k     Mallagemeilt                    Jllttilef acted improperly by lnterforing with the
        fai1'l1css of the bid nrn,cm:.   Cil""IIrIVelltin'fr        .       policy by lUeet~
                                                                 arId revealing that unless_
                                                                     contract would be awarded to
                                      "mll,,':n or that he was not informed of a second rc.scoring
       by the Technical EVIILuo.tiOilS Teal)) and he further advised 01 thnt he was never made
       aware of the pricing but lead to believe thnt unless he acted immediately Amtrak would
       nOI awunl the contract nntJi the fundIng for the project expired.

       Amtr.ak Manugemont must, us a mattor of practico, adhere to at! tho U\1.\dclincs and
       procedures when a customer requests that Amtrak procurement procedures by utilized in
       place of their own Stale's procurem.ent policies. Although no cl'imhlAl concillct Iw! been
       uncovered in this hwestigatioll the appea{snce of improprieti.es certainly docs exist.
       Faihtre·to ndhere to Amtwk Policy exposes Amtrak to financial liability especially when
       AmtmkProcurcment Policy is used to get around State procurement procedllres."



       or received a respollEo from _ , _ _ on July 22, ;1008.
       response was short and failed to addres~eo.l\cerns expressed in tho
       recommendations Ii~!ecl ahove. _ '·s response is listed below:
                                                                                            _'s
09/18/2008       09:34                                        LOS ANGELES DIG                             PAGE   04/09




         In responso to the above referenced management report, 1 offer the following
       . recommendations:

                 I. That the Oft1ce of the Inspector General recommend to the Human Resources
                    Dcprutmcnt that the .b.\divid\lnls involved in this rcpOli (all ofwhicll are no longer
                     Amtrak employees) have their persOlUlel files marked as "ineligible fo\' te-hire."
                 2, ThAt thE'> Corporate Policy be initiated by Human Reso\u'ces that l'cstricts any
                    Amtrak employee that leaves Amtrak for any reason, be restdcted from direct
                    involvement in any Amtrak business for a period of one yeal' from theiJ sep!ll:ation
                    date and if such policy exists today have it distributed in light of the number of
                    retirements aud employee separations that are taking place at this time.
                 3. Finally, that Procuremcnt issue a letter for full dIstribution to all departments
                    reinforcing Amtrak's policies and procedw'cs i.nvolving procurement of Contracts.

       ~. took           a defellsive position by transferring respollsibillty to the Human Resources
        DepArtment and the Ptocurement and Mate~lr.\ent Department. _failed
       to recognize 01' address the fact that it was_Personnel who, lirst drafted the
       Request for Proposal ("RFl''') criteria. secondly established the time lines fOI' their
       completion, thirdly engiJ\etlring recognized flaws in the RFP and failed to act to even the
       playing field. _        also failed to recognize that it was _Personnel who
       administered the bidding process, and opted to rescore the grading process while the
       scope of work remained unchanged. _ ' $ respol.lse is attached as Addenda III to this
       J.'¢jlOli.




                                                                on August 14,                  a
                       ~xtellsion which was granted. 0)) August 28, 2008 01 received a response
                         concurring with the recommendatioos identified in the Management
       Report.      adclitic'llto tllat concurrence_ stated ill that response that the following
       ~(c.ps wIll be taken to address the fmclings identified:


             b   Amtrak P"oCt1-rcmcnt recently released a' tll<>.jor rovlSlon to the procuremMt
                manual. A dawiled training program is being developed and milestones are
                provided as attachment (a). Tho frAining sessions will cover every step of the
                procllrement process and buyers will be tested on their understanding of ihe
                procurement policies and procedures
             o The events that occurred in the audit will be Ilsed to build a case study that will be
                discussed in breakout groups duritiS the training sessions. Care will be taken top
                protect confidentiality concerns aod the IG will see the draU oftlle case study for
                common approval. The case study will provide buyers all.other opportunity during
                ?ur Im;ltjllg clu~~cs (0 deal with a real world event. ·Thls case stUdy wJH test
                knowledge of policies/procedures, Judgment and escalation strategies.
             o Once traillj))g is oompletod, onch Procurement manHgeddirector will be required
               ·10 conduct Illo\lthly desk audits (at least three) to ensure compliance with policies
    69/18/2008   09:34      0000000000                       LOS ANGELES DIG                           PAGE   65/69




i                  and procedures. The result of these desk audits will be scored and reported to the
                   Chief Logistics Officer on a monthly basis
                 • Concerning the contUct of interest finding as it relates to the ex-Amtrak
                   employee. It is suggested that the IG meet with the Law Department to develop a
                   polIcy similar to the one used In the federal Government ",:,licl'e depending <JU
                   position and circumstances eitIler II Olle year or three year "cool down" is required
                   boforo engaging n fonnor omployee.

            Recommendations:

           This case should be closed. The Procurement and Materials Management Department is
           taking positive steps to ensure that situations like this do not repeat themselves. This
           corrective action begins with training, foHowed by case study and case management.
           This approach can only improve how business ofthis typo is conducted. They 11av(\ also
           earmarked time slots for managers/directors to monitor that adherence to the policy and
           procedures artd $Coro and report that progress on a monthly basis. In addition the new
           manual described in the respons€> was requested by 01 and delivered as requested.

           The Engineering Department on the other hand simply transferred responsibility to
           Human Resou,ces Department ("HRD") and the Procurement and Materials Management
           Department. The Engineering Department faHed to address that it was Engineering
           Personnel who drafted the Request for Proposal ("RFP") ci'iteria, they also established
           time lines for its completion, .Engineering acknowledged and recognized flaws in that
           RFP and failed to act to even the playing field. The only viable recommendation made in
           ~he Engineering Depru1ment's respollse was to have HRD flag those prior AmtI~k
           employees as "ineligible for rehire."




           Deputy Inspector General/Couose) ____~~~




                                                       4
